C@OCKLE

2311 Douglas Street ;
Omaha, Nebraska 68102-1214 Le ga l B riefs

1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 No.

OLIVER CARBUTT,
Petitioner,
versus
STATE OF COLORADO,
Respondent,

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of December, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOSEPH SAINT-VELTRI
Attorney at Law
1290 Williams Street
Denver, CO 80218
(303) 832-6777
jsvlawoffice@gmail.com

Subscribed and sworn to before me this 9th day of December, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

omit hex C Clit Qudiw-h, hh

My Commission Expires Nov 24, 2020

 

Notary Public

38979
SERVICE LIST

Phil Weiser
Attorney General of the State of Colorado
Brian M. Lanni
Assistant Attorney General
Ralph L. Carr Colorado Judicial Center
1300 Broadway
Denver, CO 80203
(720) 508-6000
brian.lanni@coag.gov
